                  --
                                 NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230
                                                                                Case Close-out




      OFFICE OF
 INSPECTOR GENERAL




Date:             July 19,2000

To:                              Acting Assistant Inspector General for Investigationd
                                                                                        11


From:

Re:




                     timGeT
Background

We received an allegati t t                 oyee in the Biol     direct0 e, has been
working a second job at                     store         -ni                whilelsiFd
in at NSF. It has been no     her supervisor tha        is ofien missing om the,offike
for long periods of                       also suspects that another empl&ee 'I
sometimes signs in for    becaus         s sign-ins show that she is in the building at
times when her supervisor elieves she is not.                                     I




Investigation .
                                                                                   'I
We obtained a printout i t t h e t i m e signed in and out from NSF. We also ~Ptained
the Time and Attendance Daily Records and a             of actual hours for which she was
paid fkom March 1, 2000 until June 23,2000. We found that in this period,
frequently failed to sign out on her computer, and signed out manually
found that she had worked on two Saturdays, earning credit hours.

                                         Resource Manager at .            j       verified
                                   on the Saturdays for which s e earned credit hours at
                             works only on occasional evenings and weekends.
                               that she frequently sees w a n d e r i n g around'the


We also met with-             IRM/DIS. She stated that there is no way to determine
fiom which computer a sign-m is initiated.
Findings

There is no indication      has been working at         while clocked in at NSF. In
addition, it is                                                 in from another,,
computer. Her supervisor,       has been advised that this is a management isslue.
This case is closed.
